Audit of USAID/Honduras’ Hurricane Mitch
Housing Reconstruction Activities

Audit Report No. 1-522-01-006-P

July 18, 2001




        Regional Inspector General / San Salvador
U.S. AGENCY FOR
INTERNATIONAL
 DEVELOPMENT

RIG/San Salvador


July 18, 2001


MEMORANDUM

FOR:               USAID/Honduras Director, Timothy M. Mahoney

FROM:              RIG/A/San Salvador, Timothy E. Cox

SUBJECT:           Audit of USAID/Honduras’ Hurricane Mitch Housing
                   Reconstruction Activities (Report No. 1-522-01-006-P)

This memorandum transmits our final report on the subject audit. The report
contains no recommendations.
I appreciate the cooperation extended to my staff during the audit.




                                                                              1
Table of   Summary of Results                                       3
Contents
           Background                                               3


           Audit Objectives                                         5


           Audit Findings                                           5


           Are USAID/Honduras’ housing reconstruction activities
           on schedule to achieve the planned outputs?              5


           Has USAID/Honduras implemented an adequate monitoring
           system for its housing reconstruction activities?        6


           Management Comments and Our Evaluation                   7


           Appendix I – Scope and Methodology                       8


           Appendix II – Management Comments                       10




                                                                        2
Summary of   As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
Results      Salvador performed an audit of USAID/Honduras’ Hurricane Mitch Housing
             Reconstruction Activities to answer the following audit objectives:

             h      Are USAID/Honduras’ housing reconstruction activities on schedule to
                    achieve the planned outputs?

             h      Has USAID/Honduras implemented an adequate monitoring system for its
                    housing reconstruction activities?

             USAID/Honduras’ housing reconstruction activities are currently on schedule to
             achieve the planned outputs. For the permanent housing activities, current plans are
             to complete the construction by the end of December 2001. As of March 31, 2001,
             33 percent of the planned housing solutions had been completed, 35 percent were
             under construction, and 32 percent were remaining to be started. With regard to
             temporary shelters, construction was completed in November 2000 with a total of
             2,646 families receiving temporary shelter—546 more than the programmed
             amount. (See page 5.)

             USAID/Honduras has implemented an adequate monitoring system for the housing
             reconstruction activities. The Mission hired a housing activity manager who has
             worked closely with the implementing organizations to ensure that construction was
             consistent with USAID/Honduras’ housing reconstruction strategy.
             USAID/Honduras approved housing construction sites in advance and made
             numerous site visits to ensure proper implementation of the project and to monitor
             progress towards completion. (See page 6.)



             Hurricane Mitch struck Honduras in October 1998 with devastatingly heavy rainfall.
Background   An estimated 33,000 houses were completely destroyed and 50,000 were damaged,
             affecting approximately 662,000 people. It is estimated that over 200,000 people
             were relocated to temporary shelters in the period immediately following the
             hurricane.

             In May 1999, Congress passed the Emergency Supplemental Appropriations Act,
             creating the Central America and the Caribbean Emergency Disaster Recovery Fund
             (CACEDRF), which contained a total of $621 million in reconstruction assistance
             for countries hit by Hurricanes Mitch and Georges and for earthquake damages in
             Colombia. Due to the extent of damage caused by the hurricane, the Honduras
             received $293.1 million of the $621 million.

             To combat the effects of the hurricane, USAID/Honduras and the Honduran
             government signed a Special Objective Agreement, dated June 9, 1999, for the
                                                                                                    3
“Hurricane Reconstruction Program.” The original agreement was funded for $1.4
million using funds from USAID’s Office of Transition Initiatives (OTI).
Subsequent amendments increased the agreement amount to include the $293.1
million in CACEDRF funds, for a total of $294.5 million.

Under the grant, USAID/Honduras included a $19.1 million housing activity to (1)
construct temporary shelters for displaced families, (2) develop permanent housing
units through support to non-governmental organization (NGO) programs, (3)
develop basic sites and services for housing developments, and (4) provide
community development services to transitional shelter residents and newly resettled
communities. In order to implement this activity, USAID/Honduras signed four
cooperative agreements and one grant totaling $18.6 million with three
organizations—the Cooperative Housing Foundation (CHF), Samaritan’s Purse, and
the International Office on Migration (IOM). Funding for this activity is as follows:

                                 Award             Cost
       Implementing
                                 Amount          Sharing
       Organization
                                  ($000)          ($000)     Purpose
 CHF Hogar Program                   $7,808          $3,800 Sub-awards to
                                                             NGOs for 3,000
                                                             housing solutions
 Samaritan’s Purse                   $5,632          $1,529 1,650 permanent
                                                             houses
 CHF Starter Homes                   $1,635            $343 600 starter homes
                                                             (with loan
                                                             component)
 IOM                                 $3,054               -- 1,100 temporary
                                                             shelters


 CHF Temporary                         $481               -- 1,000 temporary
 Shelters                                                    shelters
 USAID Administrative                  $320               -- Housing activity
                                                             manager/other
 To be determined                      $130               -- To be determined
 Total                              $19,060          $5,672


As of March 31, 2001, accrued expenditures totaled approximately $14 million,
according to USAID/Honduras.




                                                                                    4
Audit            As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
                 Salvador performed an audit to answer the following questions:

                 h      Are USAID/Honduras’ housing reconstruction activities on schedule to
                        achieve the planned outputs?

                 h      Has USAID/Honduras implemented an adequate monitoring system for its
                        housing reconstruction activities?

                 The audit scope and methodology is presented in Appendix I.



Audit Findings   Are USAID/Honduras’ housing reconstruction activities on schedule to achieve
                 the planned outputs?

                 USAID/Honduras’ housing reconstruction activities are currently on schedule to
                 achieve the planned outputs. For the permanent housing activities, the three
                 cooperative agreements (two with CHF and one with Samaritan’s Purse) provided
                 for the construction of 5,250 permanent houses or housing solutions. As of March
                 31, 2001, a total of 2,278 housing solutions had been completed, 2,340 were under
                 construction, and approximately 1,700 were remaining to be started. For the 2,100
                 planned temporary shelters, construction of a total of 2,646—546 more than
                 planned—was completed in November 2000, 1,638 constructed by IOM and 1,008
                 by CHF.

                 The accomplishments under the housing reconstruction activity through March 31,
                 2001 were substantial. Under its Hogar Program, CHF had signed 19 sub-
                 agreements with 11 NGOs for construction of 1,441 houses and the provision of
                 other housing solutions (potable water, sanitation infrastructure, land purchase,
                 electricity, and lot grading) for an additional 1,567 houses—a total of 3,008 housing
                 solutions—exceeding the 3,000 housing solutions in the agreement’s program
                 description. CHF is on track to construct over 4,000 housing solutions—1,000 more
                 than planned—by September 2001 due to some participating NGOs exceeding the
                 minimum 32 percent counterpart contribution established in the agreement.

                 For Samaritan’s Purse, as of March 31, 2001, construction had been completed for
                 1,451 homes—88 percent of the 1,650 houses planned to be constructed.
                 Samaritan’s Purse is on schedule to construct the remaining 199 homes by
                 December 2001, including 150 houses that were added to its agreement in March
                 2001.

                 For the CHF Starter Home Program, as of March 31, 2001, 400 of the projected 600
                 homes were completed and 40 were under construction. Sites had been selected for
                                                                                                     5
all 600 homes to be constructed. CHF has a projected construction completion date
of June 2001 for this program—six months prior to the housing activity’s
completion date.

Has USAID/Honduras implemented an adequate monitoring system for its
housing reconstruction activities?

USAID/Honduras has implemented an adequate monitoring system for the housing
reconstruction activities.

Automated Directives System (ADS) 202.3.4 requires cognizant technical officers
and strategic objective teams to monitor the quality and timeliness of outputs
produced by implementing partners. While the ADS does not specify how missions
should monitor outputs, we examined whether USAID/Honduras staff approved
proposed housing sites, made regular visits to housing construction sites, made
recommendations to grantees to improve overall activity results, and arranged for
financial statement audits of the implementing partners.

The Mission hired a housing activity manager to provide oversight to the
implementing organizations for the $19.1 million Hurricane Mitch housing
reconstruction program. The activity manager has worked closely with CHF,
Samaritan’s Purse, and IOM to ensure that housing projects are consistent with
USAID/Honduras’ housing reconstruction strategy.

USAID/Honduras approved housing construction sites in advance, ensuring that the
sites complied with environmental standards and that the sites selected by the
different implementing organizations did not duplicate efforts.

The activity manager and other individuals made numerous site visits to ensure
proper implementation of the project and to monitor progress towards completion.
These visits have resulted in the Mission identifying several facets of the activity
that have subsequently been strengthened. For example, one result was better
compliance with USAID environmental standards and adherence to
USAID/Honduras’ comprehensive housing approach to ensure that beneficiaries
have access to water and sanitation facilities and schools, and that the new
communities provide safe and accessible residential environments.

In addition, the reconstruction budget includes funds for monitoring activities, such
as personnel for project supervision, travel and per diem for site visits, and audits
and evaluations. The Mission has worked with the Office of Inspector General to
arrange for quarterly concurrent financial statement audits being conducted by the
Defense Contract Audit Agency (DCAA) of the agreements with CHF and
Samaritan’s Purse. To date, no questioned costs or reportable internal control or
compliance findings have been identified by the DCAA auditors for either
organization. An audit of IOM was not programmed since it is a public international
organization for which USAID does not normally conduct financial statement audits.

                                                                                       6
Management       USAID/Honduras agreed with the report findings. The Mission’s comments are
Comments and     presented in Appendix II.
Our Evaluation




                                                                                              7
                                                                              Appendix I

Scope and     Scope
Methodology
              We audited USAID/Honduras’ housing reconstruction activities in
              accordance with generally accepted government auditing standards. The
              audit was conducted at USAID/Honduras from March 26, 2001 through
              April 19, 2001.

              The housing reconstruction activities had two categories of planned
              outputs to be completed by December 31, 2001: (1) 5,250 new permanent
              houses or housing solutions and (2) 2,100 temporary shelters. The
              objectives of our audit were to determine if USAID/Honduras’ housing
              reconstruction activities were on schedule to achieve the planned outputs and
              if USAID/Honduras had implemented an adequate monitoring system for its
              housing reconstruction activities. As of March 31, 2001, obligations for the
              housing reconstruction activity totaled $19.1 million and accrued
              expenditures totaled $14 million, of which $9.2 million had been
              disbursed by USAID/Honduras.

              Our audit included management controls related to the Mission’s monitoring
              of the non-governmental organizations implementing the housing activity,
              including controls established to ensure timely implementation of the
              activity. Our audit was limited to the housing construction portion of the
              housing activities and did not include a review of other planned outputs
              under the grants and cooperative agreements with the Cooperative Housing
              Foundation (CHF), Samaritan’s Purse, and the International Organization for
              Migration (IOM). Our audit did not include a review of compliance with
              housing construction quality standards established under this activity.

              Methodology

              To answer the audit objectives, we interviewed responsible officials and
              reviewed relevant documentation from USAID/Honduras, as well as CHF,
              Samaritan’s Purse, and IOM.

              To determine whether housing reconstruction activities were on schedule to
              achieve planned outputs, we reviewed documentation at USAID/Honduras
              which included project design documents and the special objective grant
              agreement and its annexes, including the project’s activity description.
              These documents provided the activity’s funding, listed the expected outputs
              and identified the activity timeframe. We reviewed and verified progress
              reports from the implementing organizations that included work plans and
              milestones for achieving the planned outputs. Since no specific output
              targets were established other than life-of-activity targets, we compared
              progress as of March 31, 2001 to the final target outputs in the cooperative
                                                                                          8
                                                                   Appendix I

agreements. In determining whether activities were on schedule, we
considered the amount of time available to complete the construction, as well
as other factors, such as the rate at which previous houses have been
constructed.

In addition, we performed site visits to the construction areas to determine
the extent of progress made to date on the construction activities and verify
the information reported by the implementing entities. We visited a total of
9 sites—8 of the 51 permanent housing construction sites and 1 of the 3
temporary housing sites. We randomly selected 7 of the 9 sites visited using
probability proportional to size sampling, in which the probability of a site’s
selection was proportional to the number of houses being constructed at the
site. We visited two other sites that were in the same areas of the country as
the randomly selected sites. We believe that this sample was representative
of the overall housing activity because it covered all three implementing
entities and included housing sites in various phases of construction,
including some completed sites.

To determine whether USAID/Honduras had implemented an adequate
monitoring system for the activity, we interviewed USAID/Honduras project
officials to determine what monitoring mechanisms were in place. In
addition, we reviewed the project budget to determine the level of resources
budgeted for monitoring project activities as well as reviewing the
cooperative agreements with CHF and Samaritan’s Purse to determine if the
Mission has complied with the agreements’ substantial involvement clauses.




                                                                              9
                                                                                            Appendix I




                                                                        USAID/HONDURAS
                                                                        MEMORANDUM




DATE: J UNE 6, 2001

TO:      TIM C OX, RIG/SS

FROM:    TIMOTHY MAHONEY , MISSION D IRECTORS

SUBJECT: DRAFT AUDIT R EPORT N0 1-522-01-XXX-P
         AUDIT OF USAID/HONDURAS HOUSING R ECONSTRUCTION A CTIVITIES



This memorandum represents USAID/Honduras response to the draft report of the audit of
USAID/Honduras' Housing Reconstruction Activities No. 1-522-01-XXX-P. Mission has reviewed subject
draft report and concurs with it contents.

In addition, Mission would like to comment that the original goal of 5,000 permanent housing solutions
has been amended to 5,250. Furthermore, barring any unforeseen circumstances. Mission is expecting
to exceed its current housing portfolio and provide approximately 6, 000 permanent solutions to the
Honduran people.

In closing, USAID/Honduras would like to express its appreciation for the valuable information provided
through the audit to the Housing Reconstruction Program and for the matter in which it was conducted by
the RIG's auditors.
